UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1615

Christopher Scott Pfoff
Petitioner - Appellant
v.
United States of America
Respondent - Appellee

No:' 20-2118

Christopher Scott Pfoff
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-02893-SRN)
(0:19-cv-02893-SRN)
JUDGMENT

Before LOKEN, SHEPHERD, and GRASZ, Circuit Judges.

These appeals come before the court on appellant's applications for a certificates of
appealability. The court has carefully reviewed the original files of the district court, and the
applications for a certificates of appealability are denied. The appeals are dismissed.
July 14, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

e ci 5i on

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 1 of 22

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,

Case No. 18-CR-74 (SRN/KMM)

Plaintiff,
v.

MEMORANDUM OPINION
AND ORDER

CHRISTOPHER SCOTT PFOFF,
Defendant.

Katharine Buzicky and Sarah Huddleston, United States Attorney’s Office 300 S 4th St.,
Ste. 600, Minneapolis, MN 55415, for Plaintiff.
Christopher Scott Pfoff, No. 21456-041, USP-Marion, P.O. Box 1000, Marion, IL 62959
Pro Se.
’

SUSAN RICHARD NELSON, United States District Judge
I.

INTRODUCTION
This matter is before the Court on Defendant Christopher Scott Pfoff s Motion to

Vacate under 2g_W,S.C, § ?255 rPoc. No. 51]. and his Request for a Certificate of
Appealability fDoc. No. 71] 1
Initially, on February 26, 2020, the Court denied Pfoff s § 2255 Motion, (Feb. 26,
2020 Order IDoc. No. 67]V and judgment was entered against him fDoc. No. 6R])

Although Pfoff is the petitioner in this motion, because the current filings are found in
the underlying criminal docket, the Court refers to him as “Defendant” or “Pfoff’
throughout this ruling.
1

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 2 of 22

However, at that time, Pfoff had not yet filed his reply memorandum (“Reply”). Pfoff
subsequently filed his Reply, dated March 10, 2020 fDoc. No. 69], followed by a Notice
of Appeal to the Eighth Circuit Court of Appeals fPoc. No. 70). Pfoff v. United States, No.
20-1615, as well as a Request for a Certificate of Appealability, pending with this Court.
Because the Court had directed entry of judgment prior to receiving Pfoff s Reply,
and because the Eighth Circuit had jurisdiction over this matter in light of Pfoff s appeal,
the Court sought that court’s permission in order to reconsider its prior ruling with respect

1

to arguments raised in Pfoff s Reply. {See Fed. R. Civ. P. 60/a’i Request fDoc. No. 74].)
On April 1, 2020, the Eighth Circuit granted that request, remanding the matter to this
Court, for the limited purpose of taking such action. {See 8th Cir. April 1, 2020 Remand
Order FPoc. No. 75] .1
The Court then vacated its February 26, 2020 Order and the February 27, 2020
Judgment, so that it could consider Pfoff s Reply. (Apr. 3, 2020 Order [Poc. No. ].) The
Court further directed the Government to file a supplemental response, addressing the
arguments in Pfoff s Reply, along with a supplemental affidavit from Pefendanf s former
I

counsel, Mr. Rivers, responding to the particular claims of ineffective assistance of counsel
raised in Pfoff s Reply. {Id. at 2.) Finally, the Court permitted Pefendant to file a surreply. {Id.) The parties have now submitted the supplemental materials.
Based on a review of the file, record and proceedings therein, and for the reasons
set forth below, the Court denies Pfoff s § 2255 Motion and his Request for a Certificate
of Appealability.

2

>

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 3 of 22

H.

BACKGROUND
In April 2018, the Government charged Pfoff with one count of production of child

pornography, and attempted production of child pornography, in violation of 18 IJ.S.C. §§
2251(a) and 2251 feV2 (Indictment [Doc. No. 12] at 2-8.) The Indictment alleged that Pfoff,
who was working as a personal care attendant for Minor A, a vulnerable minor male, began
secretly video recording Minor A when he was nude, between approximately May 2017 and
/

February 2018. (Id. at 1.) The Government contended that Pfoff used a Motorola cellular
telephone and a Dell laptop to produce these visual materials. (Id. at 6.) In addition, the
Indictment alleged that during this time, Pfoff was using peer-to-peer software to download
child pornography from the internet. (Id. at 1.)
On May 22,2018, Pfoff entered a guilty plea in this Court pursuant to a plea agreement
(the “Plea Agreement”) [Doc. Flo. 24]. At the plea hearing, Pfoff admitted to the criminal
conduct. (Plea Hr g Tr. [Doc, No, $7] at 29.) He stated that he understood the charge, had
discussed it with his attorney, Bruce Rivers, and had read the Indictment and Plea Agreement,
which he also had discussed with Mr. Rivers. (Id. at 5,10,13,27.) The Court and prosecutor
discussed the elements and facts of the crime with Defendant, who admitted that he had
produced and attempted to produce child pornography depicting Minor A, using his Motorola
cell phone and Dell laptop to produce and store the videos. (Id. at 23, 26-27.)
On December 21, 2018, finding criminal history category I applicable, the Court

On March 5, 2018, the Government initially charged Pfoff through a criminal Complaint
[Doe, No, 13- It filed an Amended Complaint IDoc. No. 6] on March 7, 2018, attaching
the affidavit of FBI Task Force Officer Dale Hanson. The Hanson Affidavit provided
additional details regarding the investigation.
3

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 4 of 22

sentenced Pfoff to a term of 360 months in prison. (See Dec. 21, 2018 Minute Entry fDoc.
No. 43]: Sentencing J. fDoc. No. 44] .1
Pfoff did not file a direct appeal. On November 12, 2019, he timely filed the instant
pro se motion to vacate under 28 ILS-C. 8 2.255
HI.

DISCUSSION

Under 28 U.S.C. 6 2255(a).
[a] prisoner in custody under sentence of a court established by Act of Congress
claiming the right to be released upon the ground that the sentence was imposed in
violation of the Constitution or laws of the United States, or that the court was without
jurisdiction to impose such sentence, or that the sentence was in excess of the
maximum authorized by law, or is otherwise subject to collateral attack, may move "
the court which imposed the sentence to vacate, set aside or correct the sentence.
While § 2255 generally affords relief, it is only available in limited circumstances.
The Eighth Circuit has held that:
“[rjelief under 28 U.S.C. 8 2255 is reserved for transgressions of constitutional rights
and for a narrow range of injuries that could not have been raised on direct appeal and,
if uncorrected, would result in a complete miscarriage of justice.” ... [A petitioner]
may not raise a constitutional issue in the first instance on collateral review “without
establishing both cause for the procedural default and actual prejudice resulting from
the error.”
Walking Eagle v. United States, 742 F.3d 1079. 1081-82 (8th Cir. 2014) (quoting United
States v. Apfel, 91V 3d 1074.1076 (8th Cir. 1996)). The petitioner bears the burden of proof
as to each ground for relief. Golinveaux v. United States, 915F.3d564 567 (8th Cir. 2019)
(citing Kress v. United States, 411 F.2d 16. 20 (8th Cir. 1969)).
In his § 2255 motion, Pfoff asserts the following claims: (1) the Government failed to
show an interstate commerce nexus, as required by the applicable statute of conviction; (2)
the evidence failed to establish that a crime had been committed, as set forth in the applicable
4

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 5 of 22

statute; (3) the lack of a valid indictment; and (4) ineffective assistance of counsel. (See Pet.
at 4-10 & Attachments A-D.)
A. Meeting the Requirements of the Statute
Pfoff asserts two bases for relief that he describes as jurisdictional: (1) the charged
conduct had no effect on interstate commerce; and (2) no crime had been committed, as
“there was no sexually explicit conduct in the videos.” (Id. at 4-5.)
The applicable statute, 18 U.S.C. § 2251 tat provides, in relevant part:

U

Any person who employs, uses, persuades, induces, entices, or coerces any
minor to engage in . . . any sexually explicit conduct for the purpose of
producing any visual depiction of such conduct. . . shall be punished ... if
that visual depiction was produced or transmitted using materials that have
been mailed, shipped, or transported in or affecting interstate or foreign
commerce by any means, including by computer, or if such visual depiction
has actually been transported or transmitted using any means or facility of
interstate or foreign commerce or in or affecting interstate or foreign
commerce or mailed.
Pfoff asserts that he purchased the Motorola cell phone within Minnesota, and all
interstate commercial acts involving the phone occurred before his purchase.

(Pet.,

Attachment A; Reply at 2.) Thus, he argues, the Government was required to prove that
his cell phone moved in interstate commerce after he acquired it. (Pet., Attachment A;
Reply at 2.)
While Pfoff cites a 1937 Supreme Court opinion in support of his position, N.L.R.B.
v. Jones & Laughlin Steel Corp., 301 U.S. 1. 37 (1937), that case addresses the scope of
the National Labor Relations Act, and merely observes that legislative power should not
extend to “indirect and remote” effects on interstate commerce. (Reply at 2.) In Jones &
Laughlin Steel, the Supreme Court upheld the statute against a Commerce Clause
5

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 6 of 22

challenge, finding it did not impermissibly extend to indirect and remote effects on
interstate commerce. Id. at 31-46. As to the specific question here, the Eighth Circuit has
found that as long as the materials used to produce child pornography moved in interstate
commerce prior to the commission of the offense, the statutory nexus is established. See
United States v. Wallace, .713 F.3d 422. 42978th Cir. 2013) (finding government met its
burden to establish the interstate commerce element by showing that videotape depicting
child pornography had .been assembled'in China, then shipped to Los Angeles, before
arriving in Arkansas); United States v. McCloud, 590 F.3d 560 569 (8th Cir. 2009)
(finding government sufficiently established that memory card containing pornographic
images of a minor had.crossed state lines, as.it was manufactured in Taiwan, then shipped
to the United States, prior to its use by the defendant.); United States v. Bausch, 140 F.3d
139, 740-41 (8th Cir. 1998) (affirming constitutionality of statute in case where defendant
took photographs using a Japanese camera that had been previously transported in
'interstate or foreign commerce).
At Pfoff s'hearing on his change of plea, he l expressly acknowledged that the cell
phone and the computer he used to produce child pornography were manufactured outside
of Minnesota. (Plea Hr’g Tr. at 23, 26-27:) Because these items were manufactured
outside the state, they moved in interstate commerce prior to the offense. Accordingly,
the Court finds this element was satisfied and this basis of relief is denied.
Pfoff s other purportedly jurisdictional argument—that- the video recordings of a
minor fail to depict sexually explicit conduct—also fails. As a procedural matter, this
argument could have been raised on direct appeal, and Pfoff has failed to show cause or
6

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 7 of 22

prejudice as to why he did not do so. See Bousley v. United States, 523 IJ.S. 614. 622-7.3
(1998) (citations omitted) (“Where a defendant has procedurally defaulted a claim by
failing to raise it on direct review, the claim may be raised in habeas only if the defendant
can first demonstrate either ‘cause’ and actual ‘prejudice,’ or that he is ‘actually
innocent.’”) In his Reply, Pfoff assigns blame to his former counsel for the failure to raise
the issue on direct appeal. (Reply at 2.) Independent of the issue of procedural default,.
however, this ground of relief fails on the merits.
Under the law, “sexually explicit conduct” includes masturbation and the lascivious
exhibition of the anus, genitals, or pubic area of any person. 18 IJ.S.C. 8 22.W7.VA’> A *
sexualized display of adult genitals near a minor can also constitute child pornography.
See United States v. Lohse, 797F.3d515. 520-22 (8th Cir. 2015).
In his Reply, Pfoff argues that certain images in this case fail to depict the
“lascivious exhibition of genitals,” as defined by the factors articulated in United States v.
Dost, 636_F. Supp. 828. 832 (S.D. Cal. 1986). (Reply at 2.) The Eighth Circuit has
approved the application of the Dost factors3, see United States v. Johnson, 639F.3d433.
439-40 (8th Cir. 2011), but has observed that the factors constitute a “nonexclusive list”
to be considered in determining “whether certain conduct is sexually explicit.” United

The Dost factors include: (1) whether the focal point of the picture is on the minor’s
genitals or pubic area; (2) whether the setting of the picture is sexually suggestive; (3)
whether the minor is depicted in unnatural poses or inappropriate attire considering the
minor’s age; (4) whether the minor is fully or partially clothed or is nude; (5) whether the
picture suggests sexual coyness or a willingness to engage in sexual activity; and (6)
whether the image is intended to elicit a sexual response in the viewer. 636 F. Snpp at

m.

7

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 8 of 22

States v. Lohse, .797 F. 3d 515. 520—21 (8th Cir. 2015). Because the inquiry is “always
case specific, . . . even if a majority of the Dost factors are absent, an image may still
qualify as a lascivious exhibition of genitals.” Id (citing United States v. Wallenfang,
568 F.3d 649. 657 (8th Cir. 2009)).
The images in question depict Minor A with an erection while Pfoff measures his
genitals; Pfoff and Minor A discussing how to put on a condom while Minor A has an
erection; and Pfoff masturbating, followed by Minor A entering a room in a towel. (Plea
Agmt.

2(f).) Unquestionably, these videos meet several of the non-exclusive Dost

factors, and depict the “lascivious exhibition of the genitals” of the victim and Pfoff. s‘
Accordingly, this ground of relief fails.
B. Validity of Indictment
1. Signed Indictment
As noted, Pfoff also argues that there is no valid indictment because there is “no
signature from an attorney for the government nor the foreperson of the Grand Jury” on
the document. (Pet., Attachment C; Reply at 3-4.) Pfoff points to Fed. R. Grim, P. 7A.VU
which discusses the nature and contents of an indictment and requires that it be signed by
a government attorney. (Reply at 3-4.)
Again, this is an argument that could have been asserted on direct appeal, and is
procedurally defaulted for Pfoff s failure to raise it or to explain why he failed to do so.
Bousley, 523 U.S. at 622-23. In his Reply, Pfoff again claims that he failed to raise this
issue on direct appeal due to the ineffective assistance of counsel. (Reply at 3.) But even
absent procedural default, this argument fails on the merits.
8

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 9 of 22

The Government correctly observes that the practice in this District is for a redacted
indictment, without any signatures, to' be published on the electronic docket. (Gov’t’s
Opp’n [Dgc,_No. 65] at 11.) The-original Indictment was, in fact, signed by counsel'for
the Government and the grand jury foreperson. (Id: at n.3.) Accordingly, because the
Indictment was properly signed, this ground of relief is unavailing.
2; Notification of Charges
In his Reply, Pfoff also asserts that the Indictment violates Fed. R. Grim. P. 7tc¥D
by failing, to properly notify him. that he was charged with, both the production of child
pornography and the attempted production, of child: pornography. (Reply at 3.) Rule

-

7(c)(1) requires an indictment to contain a'plain, written statement of the essential facts
constituting the offense charged. Pfoff notes that the Indictment’s caption for Count 1 only
refers to the production .of child pornography, and he was unaware that he was also charged
with attempted production until the. Government referred to it in its original opposition
memorandum. {Id. at3-4.);
While the parenthetical caption belhw Count.. 1 in the Indictment refers to the
“production of child; pornography,” Count V alleges conduct in violation of “Title 18,
United States Code, Sections 2251(a) and 2251(e):” (Indictment at 6.) As noted earlier, §
2251 (a) criminalizes a.variety of conduct involved in the production of child pornography.
18 U.S.C. $ 2251(a). Section § 2251(e) provides.that [a]ny individual who violates, or
attempts or conspires to violate, this section shall be fined undbr. this title and imprisoned
not less than 15 years nor-more than.30 years.” 18 U.S.C. S 225IfeT(emphasis added).
The Court finds that the Indictment charges Pfoff with both the production and the
9

*

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 10 of 22

attempted production of child pornography, and finds no violation of Fed. R. Trim. P. 1(c)
Moreover, the Plea Agreement also includes Pfoff s agreement to plead guilty to
Count 1 of the Indictment, which alleges the violation of 18TI.S.C. S8 225Hat & (e). (Plea
Agmt. [f 1.) At the hearing on Pfoff s change of plea, the Court described the charge in the
Indictment, and stated, “For you to be convicted of that charge, the Government would
have to prove beyond a reasonable doubt that.. . you did employ and use, and attempted
to employ and use, a known minor male to engage in sexually explicit conduct for the
purpose of producing a visual depiction of that conductf.]” (PleaHr’g Tr. at 10) (emphasis
i

added). Pfoff stated that he understood that that was the charge against him in Count 1. (Id. at 11.) Likewise, in response to questions from counsel for the Government, Pfoff
agreed that he “used, employed, and attempted to use and employ ” a minor male for the
purpose of producing visual depictions of sexually explicit conduct. (Id. at 26) (emphasis
added). He further agreed that when he was making recordings of the minor male, he was
“attempting to capture” images of the minor male’s genitals. (Id. at 27) (emphasis added).
For all of the foregoing reasons, this ground of relief also fails.
C. Ineffective Assistance of Counsel
Pfoff specifies the following bases in support of his claim of ineffective assistance
of counsel: (1) he did not see the Indictment and did not see the Plea Agreement until 10
minutes before the hearing on his change of plea, (Pet. at 7 & Attachment D; Reply at 4);
(2) he was “pushed” into a plea at the time, as he lacked access to prescribed “psychotropic
medication,” and counsel for the Government improperly threatened him with additional
charges, (Pet. at Attachment D; Reply at 4-5); and (3) his counsel “fail[ed] to investigate
10

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 11 of 22

by way of a psychological evaluation.” (Pet. at Attachment D; Reply at 5.)
Within the context of § 2255, to establish ineffective assistance of counsel, a movant
must satisfy the “heavy burden” of the two-part test of Strickland v. Washington, 466 U.S.
668 (1984). Apfel, 97 F.3d at 1076. Under Strickland, “a convicted defendant must prove
both that his counsel’s representation was deficient and that the deficient performance
prejudiced the defendant’s case.” Cheek v. United States, 858 F.2d 1330. 1336 (8th Cir.
1988). This deficient performance must be “so serious that counsel was not functioning as
the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Strickland, 466 U.S. at
687. A defendant must show that counsel’s errors were not the result of “reasonable
professional judgment.” Id. at 690.
Meeting the first prong of Strickland requires proof that counsel’s performance “fell
below an objective standard of reasonableness.” Id. at 688. A court’s review of counsel’s
performance is highly deferential, and there is a strong presumption of adequate assistance.
Id. at 690. The second element requires showing that “there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Id. at 694. In a case involving a plea agreement, this requires a showing that
“there is a reasonable probability that, but for counsel’s errors, [he] would not have pleaded
guilty and would have insisted on going to trial.” York v. Lockhart, 856 F.2d 61. 63 (8th
Cir. 1988) (quoting Hill v. Lockhart, 474 U.S. 52. 59 (1985)). Pfoff contends that if he had
had effective assistance of counsel, he would not have accepted the plea offer and would
have gone to trial. (Pet., Attachment D.)
As an initial matter, Pfoff generally asserts that his counsel was ineffective for
11

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 12 of 22

failing to assert the arguments discussed separately above (i.e., whether the interstate
commerce requirement was met, whether the depicted acts were sexually explicit, and
whether the Indictment was signed). (Id.) (“Counsel was ineffective for not bringing to
light any of the above mentioned issues[.]”) But for the reasons stated earlier, any such
arguments would have been legally and factually futile. Accordingly, counsel’s “failure”
to raise these arguments cannot form the basis for an ineffective assistance of counsel
claim. See Clemons v. Armontrout, 921 F.2d 187. 191 (8th Cir. 1990) (finding that
counsel’s failure to raise a meritless argument could not support an ineffective assistance
of counsel claim).
As to Pfoff s even more general assertion that his counsel was ineffective for “not
arguing or raising any defense and for playing a passive role in criminal proceedings,”
(Pet., Ground 4), to the extent that it covers other, unspecified conduct, it is entirely
conclusory and vague. It fails to specify the conduct in question and fails to demonstrate
how Pfoff was prejudiced. Moreover, this general assertion is belied by Mr. River’s
performance, as reflected in the transcripts and supporting affidavits, which demonstrate
effective legal representation. See Delgado v. United States, 162 F.3d 981. 983 (8th Cir.
1998) (finding no error in denying evidentiary hearing on ineffective assistance claims
which were stated in conclusory fashion and were contradicted by counsel’s performance,
as revealed by the trial transcript.). Further, at the plea hearing, Pfoff acknowledged that
he was satisfied with Mr. Rivers’ legal services. (Plea Hr’g Tr. at 5-6.) Accordingly, for
all of these reasons, the Court rejects these general grounds of relief.

12

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 13 of 22

1. Petitioner’s Review of Indictment and Plea Agreement
Pfoffs more specific claim that he did not have an opportunity to review the
Indictment and Plea Agreement is also contradicted by the record. At the plea hearing,
Pfoff stated under oath that he had read and discussed the charges in the Indictment with
Mr. Rivers. {Id. at 5, 10, 27.) Similarly, he stated that he had reviewed and discussed the
Plea Agreement with him. {Id. at 13.)
As part of the Government’s initial filing in opposition to Pfoffs Petition, it
provided an affidavit from Mr. Rivers (“the First Rivers Affidavit”). See United States v.
Davis, 583 F.3d 1081. 1090 (8th Cir. 2009) (noting that a client waives the attorney-client
privilege by asserting a claim based on the erroneous advice of counsel). Mr. Rivers ,
describes several phone calls and meetings with Pfoff, limited to the claims asserted by
Pfoff. (First Rivers Aff. [Doc. No. 65-11

12-13.) Specifically, he states that Pfoff

reviewed the original Complaint at his detention and arraignment hearing, understood its '
contents and his rights, and did not dispute any of the allegations, nor express any lack of
understanding. {Id. ^[ 4.) Mr. Rivers further states that the Indictment was read to Pfoff
on April 26, 2018, at which time Rivers and Pfoff met for two hours, from approximately
12:30 p.m. to 2:30 p.m. {Id. 16.) At that meeting, they discussed possible defenses. {Id.)
Mr. Rivers also attests that he and Pfoff went over the Government’s evidence. {Id. ]f 7.)
He states, “Mr. Pfoff was resigned to the fact that surreptitiously recording a[]... teen boy
putting on a condom... and various other surreptitious recordings of the same teen getting
undressed were in violation of the law as it was explained to him and he decided to plead
guilty as quickly as possible with an explanation.” {Id.)
13

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 14 of 22

Pfoff disputes that any meeting occurred on April 26, 2018. (Reply at 4; Req. for
Certif. of Appealability at 3.) In fact, he states that he could not have met with Mr. Rivers
on that date, because he was hospitalized at the time, due to injuries from an assault. (Req.
for Certif. of Appealability at 3.) He contends that medical and police records would
support his contention. (Id.)
Along with its supplemental memorandum in opposition, the Government submits
two supplemental affidavits from Mr. Rivers (“the Second Rivers Affidavit” and “the Third
Rivers Affidavit”).4 In the Second Rivers Affidavit, Mr. Rivers again states that his records
document a discussion with Pfoff on or about April 26, 2018, during which time he 1‘
explained and reviewed the Indictment. (Second Rivers Aff. fDoc. No. 771 (f 5.) He notes
that Pfoff also had access to defense counsel via telephone, and all of the issues in the case
were either explained to him or communicated to him in person or on the telephone. (Id.)
Mr. Rivers further states that on March 9, 2018, he discussed the difference between a '
complaint and an indictment with Pfoff, who appeared to understand the difference. (Id.)
In the Third Rivers Affidavit [Doc. No. 78]. Mr. Rivers states that he contacted the
Sherburne County Jail’s Office Administrator, Heidi Arbuckle, to inquire if facility records
documented his visits with Defendant. (Third Rivers Aff. ]f 2.) Attached to the Third
Rivers Affidavit is an April 13, 2020 email from Ms. Arbuckle to Mr. Rivers, stating that

In Pfoff s Sur-Reply, he stated that although the Government mailed him a copy of
its supplemental opposition memorandum, it failed to provide copies of the supplemental
affidavits. (Sur-Reply [Doc. No. 80] at 1.) The salient points of the supplemental affidavits
are accurately described in the Government’s supplemental opposition memorandum, and
the Court mailed Pfoff a copy of the supplemental affidavits on May 4, 2020.
14

> .

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 15 of 22

facility records showed that he visited Pfoff at the Jail on April 26, 2018, at 12:50 p.m., as
well as on March 21, 2018, at 4:15 p.m. {Id., and Attached Email from H. Arbuckle to B.
Rivers.) This comports with Mr. Rivers’ earlier recollection of the April 26,2018 meeting,
from approximately 12:30 p.m. to 2:30 p.m. (First Rivers Aff. jf 6.)
Given that the Government has documented a meeting, supported by three affidavits
from former counsel, in which Mr. River discussed the Indictment with Pfoff, and Pfoff
provides no evidence in opposition, the Court rejects this basis for his claim of ineffective
assistance of counsel.5
As to Pfoff s claim that he did not have an opportunity to review the Plea Agreement, Mr. Rivers received it on April 6,2018. (First Rivers Aff. 9.) After receiving
the Plea Agreement, Mr. Rivers “met with Mr. Pfoff shortly thereafter and went over and
r

read the Plea Agreement to him.” {Id.) In addition to Pfoff s own sworn statements at the
plea hearing, this evidence overwhelmingly refutes Pfoff s current contention that he was ?
never shown a copy of the Indictment and only saw the “plea deal 10 minutes before court
met.” (Pet., Attachment D.)
Thus, with respect to Pfoff s claim that Mr. Rivers did not give him an opportunity
to review the Indictment and the Plea Agreement, the Court finds the evidence in the record
contradicts Pfoff s claims and fails to meet the two prongs necessary to demonstrate

5

The Court also notes that counsel for the Government represents that she contacted
' Major Dave Isais, Sherburne County Jail Administrator, regarding any off-site medical
treatment that Pfoff might have received while incarcerated in the jail. (Gov’t’s Supp’l
Opp’n [Doc. No. 79] at 2.) Mr. Isais found a record that Pfoff was transported to an off­
site medical facility on May 1, 2018, but no other records of off-site treatment. {Id.)
15

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 16 of 22

ineffective assistance of counsel. First, Pfoff has not shown that counsel’s performance
fell below an objective standard of reasonableness. Strickland, 466 U.S. at 688. Second,
he has not shown a reasonable probability that, but for the errors of counsel, Pfoff would
not have pleaded guilty and would have insisted on going to trial. York, 856 F.2d at 63.
2. Pressure to Accept Plea Offer
Pfoff also argues that his counsel was deficient for “pushing] ” him to accept the
plea offer without “givfing] [him] time to actually weigh the merits of such a deal,” despite
counsel’s knowledge that Pfoff had not received his daily dose of psychotropic medications
prior to the plea hearing. (Pet., Attachment D; Reply at 4-5.) Pfoff argues that because «'
the subject of the missed medication came up at the plea hearing, “[i]t is therefore
impossible to believe Mr. Rivers was never made aware of this as he alleges.” (Reply at 4.)
Again, the record refutes Pfoff s claims. Pfoff does not contend that prior to the
hearing, he informed Mr. Rivers that he had missed his medication, impairing his ability to
think clearly. In fact, while under oath, Pfoff informed the Court that despite lacking his
medication, he was able to participate in the hearing, was not in any physical pain, could
think clearly, and understood the Court’s questions. (Plea Hr’g Tr. at 5.) Moreover, Pfoff
testified that he discussed the charges with Mr. Rivers, told him everything that he wanted
him to know, and was satisfied with his services. (Id. at 5-6.) Furthermore, he affirmed
that he had read the Plea Agreement and discussed it with counsel. (Id. at 13.) Finally, he
stated that he entered a guilty plea voluntarily and of his own free will, without force or
coercion. (Id. at 29.)
Mr. Rivers’ recollection compohs with Pfoff s testimony at the plea hearing. First,
16

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 17 of 22

Mr. Rivers attests that he lacked any information that Pfoff was on any medication, let
alone that he had sought treatment for a medical condition. (First Rivers Aff. ^ 10.) He
contends that at no time did Pfoff inform him that he was denied medication or that he was
having trouble understanding the proceedings. (Id.) To the contrary, Mr. Rivers states that
all of his interactions with Pfoff indicated that he was “was fully aware and able to think
clearly,” (id.), and “at no time was [he] under the impression that Mr. Pfoff had any
cognitive deficits that would prevent him from understanding the criminal proceedings
before him.” (Second Rivers Aff. ]f 6.) Ultimately, Mr. Rivers asserts that in light of the
prospect of more charges and the possibility of a higher Guidelines calculation, “the
decision to plead was made by Mr. Pfoff and not by me.” (First Rivers Aff. ^ 11.)
In Pfoff s Reply and Sur-Reply, he further argues that he was unlawfully threatened
with additional charges, which led him to accept the plea offer. (Reply at 5; Sur-Reply at
4.) In the First Rivers Affidavit, Mr. Rivers states that absent a plea agreement, the
Government planned to charge each separate video as a count of production of child
pornography. (First Rivers Aff. |f 9.) In addition, Rivers states that as the case progressed,
he received emails from the Government stating that undercover officers had linked Pfoff s
computer to two separate child pornography investigations that overlapped. (Id. |f 8.)
Further, Rivers attests that on April 11, 2018, he received an email from counsel for the
Government, indicating that a second investigation was underway. (Second Rivers Aff. ]f
4.) He states that it was shortly after he communicated this information to Pfoff that Pfoff
decided to plead guilty, as counsel for the Government “was threatening to charge a second
case of possession and distribution of child pornography.” (Id)
17

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 18 of 22

Contrary to Pfoffs argument, the Government’s intention to charge additional
conduct, or to file a superseding indictment charging separate counts, was not unlawful,
and Mr. Rivers was not ineffective for communicating this information, failing to challenge
it, or for somehow misleading Pfoff.

Rather, “[t]hese alleged threats are accurate

statements of what the prosecutor might have done if [the defendant] had gone to trial.”
Nguyen v. United States, 114 F.3d 699. 704 (8th Cir. 1997) ‘“While confronting a
defendant with the risk of more severe punishment clearly may have a discouraging effect
on the defendant’s assertion of his trial rights, the imposition of these difficult choices [is]
an inevitable—and permissible—attribute of any legitimate system which tolerates and
encourages the negotiation of pleas.’” Id. (quoting Bordenkircher v. Hayes, 434II.S. 357.
2M (1978)) (internal quotation and citation omitted).
Moreover, Pfoff testified under oath that he entered his guilty plea voluntarily and
of his own free will, without force or coercion. (Plea Hr’g at 29.) A “‘defendant’s
representations during the plea-taking,”’ including those concerning the voluntariness of
the plea, “‘carry a strong presumption of verity.’” Nguyen, 114F.SH at 703 (quoting .Voytik
v. United States. 778 F.2d 1306. 1308 (8th Cir. 1985)). Pfoff has not overcome this strong
presumption. Instead, the record demonstrates no ineffective assistance in counsel’s
performance with respect to the communication of the plea offer and agreement, Pfoffs
competence to plead guilty, and the knowing, free, and voluntary nature of his plea.
Because this ground of relief is fully contradicted by the record, it is denied.

18

\ f

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 19 of 22

3. Request for Psychological Evaluation
Petitioner also claims that his counsel was ineffective for “failing to investigate by
way of a psychological evaluation.” (Pet., Attachment D.) He contends that he “routinely
asked to have a psychological evaluation” and although his counsel “agreed it would be
beneficial,” he failed to arrange it. (Id.) Mr. Rivers denies any such conversations, and
states, “At no time was a psychological evaluation ever contemplated or promised by me.”
(First Rivers Aff. f 11.) In Pfoff s Reply, he asserts that the PSR reflects that Mr. Rivers’
mentioned a psychological evaluation to the U.S. Probation and Pretrial Services Officer
who prepared the report. (Reply at 5.)
The PSR contains no reference to a psychological evaluation. It addresses mental
health, but none of these references refer to a psychological evaluation. (See PSR [f|f 44,
54-56.) Mr. Rivers has no specific recollection of discussions during the PSR process
J'

about an evaluation, other than the mental health screening that Pfoff completed while at
the jail. (Second Rivers Aff. |f 6.)
Importantly, Pfoff does not identify the type of psychological evaluation he claims
to have requested, nor its purpose. Nor does he explain how he was prejudiced in this
regard, whether with respect to his decision to plead guilty or with respect to the effect of
such an evaluation on the length of his sentence. In Ramos v. Weber, 303 F.3d 934 Q37
(8th Cir. 2002), the Eighth Circuit rejected a claim that counsel was ineffective at
sentencing for failing to request psychological assessments of the defendant’s
rehabilitation potential. The court stated, “Even if the opinions had been requested and
offered at sentencing, the trial court was not required to accept the expert’s opinions on
19

. f.

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 20 of 22

rehabilitation.” Id. To the extent that Pfoff contends that a psychological evaluation might
have had an effect on his sentencing, the Court acknowledged Pfoff s terrible childhood
history at sentencing, which was also reflected in the PSR, and further acknowledged by
counsel for the Government and the victim. However, the Court also noted Pfoff s histoiy
of child pornography crimes, his victimization of a vulnerable minor who was entrusted to
his care, and his efforts to destroy evidence. (See Sentencing Tr. IDoc. No. 58] at 18-20.)
A psychological evaluation would not have meaningfully added to the information before
the Court when it fashioned Pfoff s sentence.
And to the extent Pfoff contends that a psychological evaluation would have altered
his decision to plead guilty and go to trial instead, he fails to provide any factual or legal
support for such a position. Accordingly, the Court finds that Pfoff has not shown that
counsel’s performance in not requesting a psychological evaluation fell below an objective
standard of reasonableness, nor that he was prejudiced by counsel’s actions. Strickland,
466 U.S, at 687. This ground of relief fails.
D. Evidentiary Hearing
A § 2255 motion may be dismissed without a hearing if: (1) Defendant’s allegations,
if accepted as true, would not entitle him to relief; or (2) the allegations cannot be accepted
as true because they are contradicted by the record, are inherently incredible, or are
conclusions, rather than statements of fact. Delgado, 162 F.3d at 983. Moreover, where
the record includes all of the information necessary for the court to rule on the motion, an
evidentiary hearing is unnecessary. Covey v. United States, 377 F.3d 908. 909 (8th Cir.
2004) (citations omitted). Applying this standard to the allegations and the record, the
20

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 21 of 22

Court finds that Pfoff fails to meet the requirements identified in Delgado, 162 F.3dat983
and the record here includes all the information necessary for the Court to rule. Covey, 377
E-.34 qt 909. Accordingly, no evidentiary hearing is required in this case.
E. Certificate of Appealability
Pfoff also requests a certificate of appealability. Among his arguments, Pfoff states
that the Court ruled prematurely on his § 2255 motion, prior to considering rebuttal
arguments in his Reply. (Request for Cert, of Appealability at 1-2.) As noted, the Court
has since vacated its prior order and entry of judgment, and has considered Pfoff s
arguments in his Reply, as well as additional briefing.
In order to appeal an adverse decision on a § 2255 motion, a movant must first obtain

.

a certificate of appealability. See 28 U.S.C. § 2253fcY1)(B). A court cannot grant a
certificate of appealability unless the applicant has made “a substantial showing of the
denial of a constitutional right.” Id. § 2253(c)(2). This Court has considered whether the
issuance of a certificate is appropriate here and finds that no issue raised is “debatable
among reasonable jurists.” Flieger v. Delo, 16 F.3d 878. 882-83 (8th Cir. 1994) (citing
Lozada v. Deeds, 498 U.S. 430.432 (1991) (per curiam)). Accordingly, the Court declines
to issue a certificate of appealability and his request is denied.
IV.

CONCLUSION
Based upon the foregoing, and all the files, record, and proceedings herein, IT IS

HEREBY ORDERED that
1.

Defendant Pfoff s Motion to Vacate Pursuant to 28 U.S.C. § 2255 fDoc. No. 51 ]
is DENIED;
21

‘

CASE 0:18-cr-00074-SRN-KMM Document 81 Filed 05/19/20 Page 22 of 22

2.

Defendant Pfoff s Request for a Certificate of Appealability fDoc. No. 71] is
DENIED; and

3.

No evidentiary hearing is required in this matter.

LET JUDGMENT BE ENTERED ACCORDINGLY.

Dated: May 19, 2020
s/Susan Richard Nelson
SUSAN RICHARD NELSON
United States District Judge

22

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1615
Christopher Scott Pfoff
Appellant
v.
United States of America
Appellee
No: 20-2118
Christopher Scott Pfoff
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-02893-SRN)
(0:19-cv-02893-SRN)
ORDER
The petition for rehearing by the panel is denied.
September 17, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

3% us e s. S2 SS

W U5CS 9355
. (o>) A -pnsoner )r\ Cuslcdu under sentence 3* a- epori
esdablidhed by heddf Crnejess Coming 4k ri^4 4v be.
releosed upon 4k 6jround 4)io4 4k serdence 60AS
imposed in violation o*V 4k Consdidtdiof) or /<3605 o
4k United S-WjsSy or 4k4 4k Courd lcos LOldhood
\pr15dfsi10n do impose Such Sentence, or dhad 4k
Bcndence 6oas m excess Jr 4k moXimjm adbonzed
by tato, or is sdherunsc Subbed 40 coilodeml oAxcd^j
may move 4k Cook iohiAob imposed 4k Sentence do
vocodcj Sod aside or Correcd 4k $enience*
1(4) Unless 4k nnkinn ok 4k Viles
records of 4k
Cose Conclusively sko 4k4 4be -prisoner is coddled
do no relief 4k 0oor4 shall Cause notice dhereof do be
Served upon 4k Omded ‘bdedts eddornoji Cj/nnd a -pmmpd
heanng dbereon/ dedemine 4k issues and moMe GnokcjS
oV W onj Conclusions of ko 60/4)) reepecd dheredo.
4K 4k Cook ^Ws 4k4 4k ^ud^mend oJas rendered
604k4 \pnsd>cdi&r\, or dhad 4k Sef)4enoe imposed
loos nod audhonzed by law or cdberwise Open da
fiolladeral udbeh. or dbo-d dbere has been Such o- denial
\or snrriYiopxiimd
a* 4k ConshdidiowJ m44s o? 4k
Sri
fprisomr os da render dht ydamerrl* Vulnerable 4o
(CoILkaJ cSock/ dhe Coord SnoJ/ vonode orj Bed 4k
risoner

or resen W& him orgionA a. neuo 4rioJ or correc4 dhe
.Sentence os tmy appear apprvpriode*
(£) A ££ur4 may enderdam and delemme Such moAon
*toi4hoid' requiring 44e production o? dhe prisoner ad- 4he

h earing,
Cd) An Ofpool may he 4oJW> 4? 4he flour4 of appeals
I from -Hie oider entered on 4he modion os from a final
* ^ud^mend on oppliadion %or a ojn 4 of habeas Corpus.
Le) m appiicaiion fora wn4 of habeas Carpuus in behalf
,0? a- -prisoner uho is OuAhonzed 4o apply \o r relief b

y

.mcdbn porsuan4 4o -this Section, shall no4 he enierdnunoj
,if 4 appears 4ha4 4he oppiican4 has foiled 4o apply
*?>r relief , hy motion, do 4)?e Oaor4 ishicJi Sentenced
him, or 4ha4 Soeh Coord has denied him retie?, unless
' f

j 4 also appears 44a4 4he remedy by modion is
\nodeqyodie or ineffeenve do desd dhe legal i4y of his
idcderdlon*
^f) A I-year period cf Iim4o4)on Shall apply 4<o a
, mo4ion under dkis Secdion^ ~^nc hmidvdi on ‘period shall
run f/ofa 4Ae lodesh of —
,

£ 0 4he <dale on a)hieh 4he jjdgrwf of 6wic4i(?n
bed^mes fmal,
(p) 4be dodie on uobich 4he impedimend 4d rnabihg
a modion Oreoded by govern revrtJ ocdion in
Via lahon of 4be Cons44t4»on or laws of 4be

5

Uniieci <Sk4es )S removed, i? 4be fflovod

CJOS

'pl'CVen-leci Vrom mcdhmc^ o~ mo4on by Such
aoverrvmenhJ oo4i on,

LS) jhc do.4e on cohid) 4he ri^h4 asserted coos
i-lioJiy recognized by 4be Supreme Coor-l, <? 4b o4
! _ fig Kbr has.
been neudy
feccornzed by 4he Supreme
nos. Deem
neu) iy recoct
Lour4 anJ mode rebrood'ivel'y app) icdde 4o coses on
i
Collcdml review, on
*
(4) 4lie do-4e on oohicb 4be *5x45 Support nq 4be
+

£.iaiM ov cioums yreSerded Could hove, been

;
discovered bhrougVt .4ht excise o? due diligence*
lep E*cep4 os ymndea m Scchon 40% o? 4be. Con4rdlad
iSubsbxnxs AcJ^in.^l‘^irDCcaJ.iifjgp brough4 under 44/5
5adion( and any Subsccjywd "proceedings on review, 4be
jCoufd msy a-ppoinb Counsel, excepf as "provided by a rale
rpramul^dod by 44ie Sup reme Crx>nb^)ur5uanb 4o sbberiDry
au4W4y. kypan4me/)4
nirlhonrN.
kptx^nrmenT or Counsel order 4bis S^chiOn
.Shall be governed by SecJion 3006 A oV 44k
(h) A Second or successive rnobon mus4 be. CerliVicd
.as "provided m Sed-ion 3^44 by a "pane/ of 4be.
approprio4e Cour4 oV appeals 4o Oonrleiin
f(>) naoly Jiscavend evidence 4ba4 i? "proven and
V/eioed m linK4 cX -fte evidence as a cohole,
ujould be Sun iaen4 4d (fs4aidid) by door and
Convincing evidence 44o4 no reasonable ^odAmder

.^LooolJ.hove ^\ooy)J Ahc 'mo's/Oi'A
. cKense.

T Ily- oS"

4)e

/

L^XooCEMJcala oh ..Cons^rJploiAl jaio^.. mode ndmockV£
do Cc&es on Cbl joderoi

4hod

£aJ05

rEVJPW

'previously - Dnavou

4

by 'Hie Supiene Coord,

